No. 20-979

INTHE

$)upreme Ql:ourt of tbe ~niteb $)tate%
PANKAJKUMAR S. PATEL AND JYOTSNABEN P. PATEL,

Petitioners,

v.

MERRICK B. GARLAND , ATTORNEY GENERAL,

Respondent.

CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 7th day of September, 2021, I caused three copies of the Brief for Former
Executive Office for Immigration Review Judges as Amici Curiae in Support of
Petitioners to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Brian H. Fletcher
Acting Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Room5616
Washington, D.C. 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioner
Taylor Meehan
CONSOVOYMCCARTHY PLLC

1600 Wilson Boulevard, Suite 700
Arlington, VA 22209
(703) 243-9423
taylor@consovoymccarthy.com

Court-Appointed Counsel

Ira J . Kurzban

KURZBAN KURZBAN TETZELI & PRATT P.A.

131 Madeira Avenue
Coral Gables, FL 33134
(305) 444-0060
ira@kk.tp1aw .com

Counsel for Respondent

